IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
The opinion of the highest state court, the Delaware Supreme Court, to
review the merits appears at Appendix (“App.”) A to the petition and is
unpublished. The Order of the Delaware Supreme Court denying a Rehearing of
their opinion, appears at App. B. The unpublished opinion by the Delaware
Chancery Court appears at App. C. The unpublished Master’s final report appears
at App. D.
JURISDICTION
The date on which the highest state court decided my case was July 7, 2021.
A copy of that decision appears at App. A. A timely petition for rehearing, (App. B1), was thereafter denied on the following date, July 19, 2021, and a copy of the
order denying rehearing appears at App. B. The jurisdiction of this Court is
invoked under 28 U. S. C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Pertinent statutory provisions are reprinted in the appendix to this brief, App 1a.
STATEMENT OF THE CASE
GOVERNMENT VIOLATIONS OF RFRA, IN RESPONSE TO FILING A CLAIM
FOR RELIEF
1

Members of the government, including court staff members, purposely
interfered to pressure me to forgo or impede this case to protect my free exercise of
religion, which I specifically objected to, reserving the issues for appeal, based on
Due Process, the First Amendment and the Religious Freedom Restoration Act, 42
USCS § 2000bb (1-4) (“RFRA”) in an unaddressed, motion, Appellant’s Motion for

the Delaware Supreme Court to rein in its arms through its agents from unlawfully
pressuring appellant to forgo or impede her case to protect her free exercise of
religion by relief it deems just (Motion 1), reserving the issues for appeal. Also See,
my Motion for Reargument. 1
The Court made no ruling on Motion 1 or on my arguments relating to a fair
trial, without Due Process violations in response to my arguments in either the
Chancery Court or the Delaware Supreme Court briefs.2
The Delaware Supreme Court also did not address my Motion for the

Delaware Supreme to require the recusal of the Honorable Chief Justice Collins J.
Seitz, on May 28, 2021 (“Motion 2”), which provides additional evidence of
government suppression of my free exercise of religion, by impeding, seeking to
obstruct my right to seek a judicial remedy to freely exercise my religion, based on
the established government-religion, association or poverty, reserving objections
against the Court in Motion 1, related to Motion 2, in violation of RFRA.3

App. B-1, Ex. A-4 to App. E.
App. B
3 App. B, B-1, and Exhibits A-4 and A-5 to App. E
1
2

2

A Chancery Court staff member intentionally instructed me to cross off the
Civil Process Clerk’s address to prevent service on a subpoena to prevent the case
from going forward based on her support for President Trump-(“Trump”) religious
views.4 This same Chancery Court staff member intentionally sought to sabotage
my case by causing me to almost miss my deadline to appeal the Master’s Final

Report based on my religious-political views. She indicated her support for Trump
and supports freedom of government servants, like President Trump, to share
religion unabridged by the Constitutional limits on government agents, thereby
opposing my view to dissolve government-religion. Her intent was based on seeking
to suppress my religious beliefs in favor of Trump-religious beliefs, in violation of
the RFRA. When I confronted her as to why she misled me not to come in to pick
up the ruling, she snidely retorted it was available online.
Judge Clark, a Delaware Court of Common Pleas Judge and DE-Lapp, an
arm of the Delaware Supreme Court also sought to obstruct, impede, interfere and
prevent me from going forward in my case, which I specifically objected to in Motion
1. I have religious objections to healthcare and mental healthcare that De-Lapp
provides.5 Per my Motion 1, I informed the DE Supreme Court of some of my
religious objections to alleged healthcare by stating:

App. G, and exhibits to App. G
Ex. A-4 to App. E. I have religious objections against even physical examinations for trial or for
routine check-ups by doctors who provide data, conclusions, as if they are God, or statistics for
research money or for pay, which violate my beliefs concerning being numbered as data. See, 1
Chronicles 21:1, 1 Chronicles 27:24, Samuel 24:1, King David sinned against God for using his men
as commodities, as mere numbers, not capable of reflecting the divine image of God, but to be used
for war or wealth. Distinguish this from our use of the census, which must be used to care for, not
exploit humanity. I am a child of God, priceless, not a price tag, to be sold for money. I am not a
4
5

3

“…I certainly hope this Honorable (Delaware Supreme) Court
did not instigate the abuse by its arms. If so, please desist. 26. DELAP was looking after its own interests, which conflicts from mine. 27.
I am a Christian. I believe people go to hell for trusting in what
psychologists, mental health professionals, psychiatrists and
behavioral theorists teach, which often is focused on being happy or
productive materially instead of being holy. The organization premises
its existence on mental health theories which I believe harm people. I
believe such theories teach patients to seek to fulfill their own material
desires instead of doing what is right, thereby teaching people to
reflect a little piece of hell on earth, the image of Satan by living for
self, conditionally caring based on relationship, reward and avoidance
of harm with no sacrificial unconditional love or God in them, teaching
a lie that damns. See Isaiah 14 to understand how Satan wanted to be
his own God, as high as God, to place self-first. I believe their thinking
misleads patients to hell, especially BJ Skinner’s theories, which most
teachers, including myself learned. 28. These mental health
professionals focus on misleading people to feel good, not be good,
which is not good. I believe it is evil, misleading those they exploit for
a paycheck to harm and hell.”
My faith in God may appear crazy to others. Nevertheless, I have the
freedom to believe by the dictates of my conscience, no matter what the government
through its agents believes.6 I am allowed to think differently instead of being
conditioned to worship as the state’s forced will of materialism, pursuit of money,
and unholy charity that damns people to hell per Jesus, such as fundraising or
organized charity. Jesus teaches people “have their reward,” meaning they have no
reward, no eternal life from God. Matthew 6:1. Organized charity, fundraising, pro
bono, and volunteering is no small sin. It is not true charity, but damns people to

human commodity to examine, to exploit for business greed by being a statistic or number. I believe
our current healthcare destroys lives and eternal lives to serve wealth, not good. Please see my
proposals to change our healthcare laws to care for people, not exploit them for profit. Ex. 43 to App
F. Drugging up the sick and elderly in hospitals is their damnation in hell guaranteed should they
die. Ecclesiastes 7:1, Matthew 24:13, Ezekiel 3:17-21. I believe you must use your mind, to think, to
care to know, to love to be saved from certain doom. Deuteronomy 30:19, Sirach 15:11-20.
6 Cantwell v. State of Connecticut, 310 U.S. 296, 60 S. Ct. 900, 84 L. Ed. 1213 (1940).

4

hell by teaching business, giving out of one hand to get out of another, is love. Love
is unconditional. Business is not the sin. Teaching business is charity is the sin by
driving love, God, out of the hearts of men replacing it with the love of money.
Citing, Matthew 6:1-5; Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 682, 134
S. Ct. 2751, 2759. (“Courts have no business addressing whether sincerely held
religious beliefs asserted in a RFRA case are reasonable.”); Employment Div., Dept.

of Human Resources of Ore. v. Smith, 494 U. S. 872, 887, 110 S. Ct. 1595 (1990).
(“Repeatedly and in many different contexts, we have warned that courts must not
presume to determine the place of a particular belief in a religion or the plausibility
of a religious claim.”).
I also confronted government agents with policies that violate my belief in
Jesus’s teachings, which may be a source of religious persecution by government
agents to hide critiques on religious grounds.7 For instance, I filed a law suit
against the democrats in Delaware, seeking to run for office without buying a
position in office by money, support or compromising signatures with inherent
strings attached, but earning it by the freedom of the people to choose, by the vote.
The vote should be the only manner to elect officials as the only equal, free and fair
form of electing officials by free choice, not forced for sale bought choice. Money is
not free speech, but bought speech, rendering unequal weight be given to those with
more to barter or exchange, potentially violating the Equal Protections Clause by

7

Exhibits 1-8, 15, 46, 52.

5

disparate treatment based on wealth, making the poor less free.8 Officials should
not be permitted to be bought in violation of the U.S. Const. Amend. XIII (“13 th
Amendment”), by essentially compromising the elected officials’ ability to care for
the people with all resources, not exploit the people by paying back individuals, and
artificial entities without hearts, entities, organizations, businesses, religious
organizations, charities and not for profits (“beasts”), for their support, who take
more than government resources, through incentives, grants, tax breaks or favors to
exploit need to serve greed for money, not love for humanity, they also take people’s
freedom through artificial debt creating forced servitude to pay back debt to feed
the beasts who exist based on the love of money, not love of humanity. Only
humans can love. Entities cannot. That makes each of you justices, individually
more powerful than the court, by your free choice to choose to love humanity over
money, by seeking justice over concern with business costs, convenience, and
comfort.
Creation of manufactured forced jobs by use of tax breaks or tax dollars to
feed beasts, and forced, not free labor in a take it or go without alternative, in
violation of the 13th Amendment, stifles innovation that improves humanity’s lives,
through free thought and debate, even finding flaws to correct imperfect business
proposals, in a forced, not free market where people across the board and

Disparate treatment by the government’s application of election laws based on economic class or
affiliation with groups that give some classes of people greater position to buy and sell or market
leaders, making others less free to freely chose leaders who are otherwise for sale puppets should
violate the Equal Protections clauses through the Fourteenth Amendment applied to the state and
the Fifth amendment component applied to the federal government. The vote, not money should
determine who Americans freely choose as elected officials.
8

6

professions are forced to adhere to the narrow view across the profession, by
conformed standards taught by continuing education classes and schools, not by the
use of workers’ free will, their brain, to freely care for the people, but only for the
trained for profit narrow standards of those who create the jobs to exploit labor and
consumers for profit.
Forced volunteer positions, required by mandate for food stamps, or forced
pro bono by professions to feed beasts also violates the 13th Amendment.
I do not force my will or God’s will upon others as that is sin. Not even God
forces his will upon us, but we have free choice. So, I seek to protect the free choice
of humanity from the forced choice of the few who diminish the freedom of
conscience of the many by economic, physical or social persecution and force.
Without the Court’s protection of free choice, the freedom of conscience, none are
free by the oppression of the forced choice of those with money, power and
connections that force their will upon humanity, without constraint in the form of
the rule of law or love written on hearts, namely the Constitutional limits on
governments that grants us freedom from forced control, tyranny.9 See Jeremiah
Speaking of forced will, rendering us no longer free, this summer I discovered two books written
by the World Economic Forum founder, The Fourth Industrial Revolution, by Klaus Schwab, 2016
version, excluding additional pages of the 2017 updated version, which may be found at
https://www.academia.edu/38203483/The_Fourth_Industrial_Revolution_pdf?fbclid=IwAR1koMak7N
-40mbSf9wSGt8XzdhAJgafnbmobfn70FB4nbqcafl_hsN-RnQ and Covid-19:The Great Reset, by Claus
Schwab and Thierry Malleret, published 2020,
https://carterheavyindustries.files.wordpress.com/2020/12/covid-19_-the-great-reset-klausschwab.pdf, alluding to the elimination of the dollar, and an economic crash with about 47 percent of
Americans expected to be unemployed by 2026-2027. The Fourth Industrial revolution’s plans to
make profit a different conniving way, not improving the lives of humanity, exploiting humanity for
the love of money differently. One of the jobs to be eliminated is lawyers, meaning the courts may be
in jeopardy too. The books allude to, the dismantling of government by a takeover through the back
doors to our electronic devices, and by government-private partnerships. Such partnerships allow
9

7

the government to become powerless to enforce the rule of law against its own partners, private
entities. Since governments collude with them. My goal to dissolve the bought, not free, or based on
freedom. union of government-religion. This merely coincidentally is the first step to prevent the
schemes to harm humanity for the profit of a few. The US Attorney Generals may seek to prevent
the planned global economic crash by dissolving government-private partnerships, dissolving
corruption within the government by the spend it or lose it provisions rewarding waste, prevent bail
outs, incentives and tax breaks to entities as opposed to people, and by prohibiting the requirement
of paying, fundraising, or gathering signatures or support in order to participate as candidates,
possibly in violation of bribery or fiduciary laws. Allow the vote to be the only form to elect leaders.
In addition, the Attorney General must also close the back door President Bush, Jr. opened up after
9-11 to our electronic devices to prevent the planned crash of the economy. Plan B, which should be
done anyways, is for the government to take back the government coining power from the private
sector, the Federal Reserve, and coin money without interest, and without debt to care for the people
as both Presidents Lincoln and Kennedy chose to do. President Lincoln created debt free, interest
free money by signing the Act of Feb. 25, 1862, ch. 33 § 1, 12 stat. 345.28. President Kennedy signed
FR 5605, Exec. Order No. 11110, which also created money, without exploiting the masses to pay it
back to those who do not earn it, but take it, essentially giving free lunches to those already fat,
serving greed, not need, in violation of the 13th Amendment. See the Creature of Jeckyll Island, a
Second look at the Federal Reserve, by Edward Griffin, 7th printing 1998, which may be found at
https://ia802609.us.archive.org/14/items/pdfy--Pori1NL6fKm2SnY/The Creature From Jekyll
Island.pdf, Also see Exhibit H. (See, how banks create money out of nothingness to profit off of
indebting the people to interest and the federal government to pay interest on bonds. The
government can coin money without creating debt and interest no matter what these conniving
economists who seek self-gain sell you, at the cost of hurting others). Please note, I disagree with his
theories premised on violating God’s laws, there is a way to care for the sheep in a shepherd’s
pasture, not fatten them up and eat them with the wolves.
The Stock market is nothing but resold debt, which can be artificially increased the appearance of
value, through stock buy backs, decreasing supply to increase demand, which artificially creates the
appearance of prosperity. There is nothing there but I owe you’s, same as the banks. Our economic
model is built on a Ponzi scheme, selling what entities don’t have at a profit, and reselling debt into
infinity, until crashes occur by design, federally backing the banks, not the people. When all the
entities finish manipulating truth to artificially inflate their own salaries, profits and bonuses
transferred to people, within entities, who seek to be shielded from liability in entities by hiding
money in offshore accounts, and the entities go into bankruptcy, the baby boomers will lose their
retirements, pensions, and life savings, if no one asks the courts to save the day. We must not be
blinded by money, but see the present harm ahead. I beg this Court to be our hero of not only the US,
the world, but all of humanity, by preserving the rule of law, from the lawless mark of the beast,
business greed, anything goes for the bottom line. “Justice in the courts is a command by God.”
Amos 5:15, a “greater command, along with mercy and faithfulness” per Jesus. Citing Matthew
23:23. You have the power to save life and eternal life by justice, or to destroy life and mislead
people to harm and hell by choosing money and material gain as worth human sacrifice, injustice
guaranteed. Please note, Presidents Bush Junior, Clinton, Trump, Obama, Vice President Biden
and Trump’s daughter all know or should know of the intended elimination of the dollar, economic
crash, and dismantling of the rule of law, replaced with the reign of lawless, unrestrained business
greed, the mark of the beast, the whore, the twice dead. They attended the World Economic Forum
meetings. Please help us your honors. Our Presidents and Congress people misbehave and need
your loving governing correction with mercy to tame them from behaving like beasts instead of men
with hearts to sacrificially serve and care for the people. Please help us. Preserve the rule of law.
You are our hope of a hero. Please restrain the unbalanced two limbs within the Constitutional rule
of law, from selling our freedoms away to enslave us as serfs, should the World Economic Forum’s
plan remain unstopped. Our leaders are dumb and blind, blinded by money. Sirach 27:1 (“For the

8

31, The law of love is written on the hearts of all humanity with the death or
resurrection of Jesus per Jeremiah 31, accessible to hall humanity, gentile or Jew,
should they not choose to harden their hearts by giving into temptations,
distractions, not to use our free will, brain, to think, to care, to know, to love in
truth. See, Galatians 3:28.
The government agents acted based on retaliation of my exercise of religious
objections to government conduct in violation of RFRA.
The First Amendment prohibits state officials, employees and agents from
retaliating against claimants, such as myself, for exercising their right of access to
the courts. “Retaliation by public officials against exercise of First Amendment
rights is itself violation of the First Amendment.” 10
The retaliation by the court against me, for exercising the right to seek access
to the courts to remedy grievances, evidences the established-government-religion
directly caused harm, suppressing and impeding my freedom to worship and stand
up for my faith to worship Jesus the Christ in court, and causing foreseeable
reasonable infliction of mental distress, in violation of the RFRA.
I am permitted to believe differently than the government through its agents,
even if what Jesus teaches seems foolish to the world. 1 Corinthians 1:18, 2:14-16.
I have the freedom to pursue justice in the courts, to protect my freedom to

sake of profit, many sin, and the struggle for wealth blinds the eyes”), Matthew 13:13, Deuteronomy
29:4.
10
Zilich v. Longo, 34 F.3d 359 (6th Cir. 1994), U.S.C.A. Const. Amend. 1.

9

worship by the dictates of my free will, not the forced will, not the dictates of the
state through its agents to worship money, which I believe leads to damnation
under the established government-religion. I believe business greed is the mark of
the beast. Jesus teaches you cannot serve God and money. Matthew 6:24, 1

Timothy 6:10, I stand by God.
I. FAILURE TO SERVE THE BRIEF TO EJECTED DEFENDANT
My failure to serve anyone my Delaware Supreme Court Brief, after the
Defendant, President Trump, was removed from office was not a fatal error, given
no relief could be made by Defendant, Former President Trump, since only a sitting
President can afford relief, and it was not ripe to move to substitute or serve
President Biden without a favorable determination on standing for the continued.
I only served President Donald J. Trump, and the US Attorney General
William Barr the Complaint together with the Amended Complaint. The Court did
not grant me permission to serve the US Attorney General’s Office for the District of
Delaware yet. All process was halted pending an outcome on this issue, including
all subpoenas for the Second Amended Complaint I filed on October 12, 2020, with a
corrective complaint October 13, 2020.
On January 20, 2021, President Biden (“Biden”) replaced President Trump.
Trump is no longer President of the United States. I am seeking relief against the
President in his official capacity, not in the president’s personal capacity. Trump,
in his personal capacity, is no longer a defendant in this action, as he cannot afford
the relief only a sitting President, Biden, may afford.

10

William Barr, Esquire is no longer US Attorney General. William Barr,
Esquire was replaced with U.S. Attorney General Merrick Garland. I have not
amended my complaint to include the current President, President Biden yet. US
Attorney General Merrick Garland is unable to represent former President Donald
J. Trump or President Biden at this time. The Chancery Court did not send its
March 26, 2021 Order Overruling my exceptions to the Master’s Final report.11
There was no defense counsel or Defendant to serve for the Delaware Supreme
Court appeal. Pending a favorable review, I would be permitted to make a motion
to amend my complaint, to substitute Trump with Biden to serve President Biden
the amended complaint.
President Biden is not prejudiced, since I have not amended the complaint to
make him a party, and his counsel, has every Document in this case and notice that
I may file a claim against President Biden, should the courts grant me permission.
In the alternative, I pray your honors find service is excused for good cause in
light of the unique facts in this case.
Should the Court affirm on the issue of serving the Delaware Supreme Court
brief, I respectfully request your honors grant me dismissal with prejudice, to
prevent res judicata from barring future claims on the same or similar alleged
conduct.

11

App. C-1.

11

Defendant former President Biden is not prejudiced, as I do not have a
favorable ruling granting me permission to seek to continue this suit to potentially
substitute him as a party. Substitution of parties is not automatic in the Delaware
Chancery Court, unlike the US Supreme Court Rule 35.12 I personally delivered a
copy of every document I filed in this case to US Attorney General David Weiss in
the District of Delaware, and mailed US Attorney General David Garland every
document filed with the Delaware Supreme Court. They have every document in
this case, albeit a new amended Complaint must be filed against President Biden
before this case may continue, as not yet ripe, or in the alternative, I respectfully
request your honors, dismiss this case with prejudice, preventing res judicata and
collateral estoppel relating to these uniquely important claims.
II.

EXECUTIVE ORDERS ESTABLISHING GOVERNMENT-

RELIGION, BUT FOR CAUSING ME HARM, SOCIAL SUPRRESSION,
ECONOMIC, FORGOING GOVERNMENT BENEFITS, HARM PHYSICAL BY
EMOTIONAL DISTRESS CAUSED BY BOUGHT OR GOVERNMENT BACKED
ESTABLISHED RELIGION, MONEY AS GOD, BLASPHEMING GOD’S NAME
FOR THE VANITY OF SOULLESS ORGANIZATIONS INCAPABLE OF FREE
WILL TO CHOOSE TO LOVE
The Delaware Supreme Court erred in concluding Executive Order 13798
(“E.O. 13798”) is Constitutional by misapplying arguments related to different
executive orders, and by overlooking my argument that Executive Order No. 13798,

12

See, Chancery Court Rule 25

12

is unconstitutional in violation of the Establishment clause by allowing religions,
through churches, temples, mosques or other religious organizations to back
government parties or government agents or potential government agents with
money, donations, support or otherwise, giving the blasphemous backing of God and
religions for the vanity of mere men in place of God, without losing their tax exempt
status, upsetting me with foreseeing physical manifestation of emotional distress
including grinding of teeth, tears and at times increased heart pressure, in addition
to establishing government-religion which substantially burdens my free exercise of
religion by those who adopt Trump-religious beliefs.
Government servants are mere men, not God’s anointed I believe Jesus is
the savior, not mere men, not President Trump or President Biden. It is
blasphemous to allow religion to back government with funding or otherwise, as
opposed to individual religious people. Allowing religious entities to buy or barter
for government power, influence with money, support, favors or otherwise, through
donations to government candidates or government parties, as this executive order
permits violates the Establishment Clause and RFRA by making me, and other
Americans less free to worship by the dictates of our conscience, not the dictates of
the dollars that force government-backed or bought religion.
The United States is a democracy, not a theocracy, with freedom of religion,
not forced religion under the threat of government sponsored private and public
economic, physical or social persecution, such government-religious-beliefs and

13

government-religious-parties inherently create. My God is not for sale for
government gain.
Churches are now demonizing liberals and democrats, including me as antiChrist with immunity E.O. 13798 gives them, inciting parishioners and others to do
the same against me, causing emotional distress and the chilling of my free exercise
of religion, speech and association.
Since I do not support Trump, and claim to be a democrat, people have
accused me of not being a Christian, reasonably causing me to experience emotional
distress and substantially burdening my free exercise of religion, speech and
association by leaving it restrained and at times unexercised, but for Trump’s
incitement towards perceived, projected manufactured dissidents, including liberals
like me, as antichrist. 13
“The very adoption or passage of a policy that violates the Establishment
Clause represents a constitutional injury.”14
Presidents Trump, Bush Junior, Obama, and Biden also passed a series of
additional executive orders, making us less free to worship freely, by buying the
support of churches by paying them to perform government welfare duties, thereby,
increasing waste by artificial entities without hearts, churches, organizations, not
for profits and businesses (“beasts”), who seek to get as much as they can for as
little as they can. Citing, Ex. Or. No. 14015, Feb. 14, 2021; Ex. Or. No. 13198, Jan.
29, 2001, as amended by Ex. Or. 14015, Feb. 14, 2021; Ex. Or. No. 13199, Jan. 29,

13
14

Exhibit A 19, 20 to App. F
Citing, Kitzmiller v. Dover Area Sch. Dist., 400 F. Supp. 2d 707, 708, (2005)

14

2001, as revoked by Ex. Or No. 13831, May 3, 2018; Ex. Or. No. 13279, December
12, 2002, as amended by Exec. Or. No. 13559, November 17, 2010; Ex. Or. No.
13559, Nov. 17, 2010.; Ex Or. No. 13831, May 3, 2018; Ex. Or. No. 14015, Feb. 14,
2021, (Collectively “Executive Orders”).
Beasts run on cold hard cash, not love, no matter the name of the entity,
church or not for profit, when they seek to give to get under the illusion of charity,
but in truth are paid money to perform government business by the government.
See Matthew 6:1-5. The Executive Orders create inefficiencies, while increasing
government debt for government gain, at the cost of making us all less free. Far
worse, the Executive Orders encourage churches to supplement with alleged
charity, by fundraising or otherwise, to serve business greed. I believe teaching
business is charity damns the perpetrators and those they mislead to hell, causing
economic harm here, and damnation in hell forever, by the bought or bartered for
loyalty of churches to political parties, candidates to offices and government agents
in an unholy bought or bartered for union of church and state, not free, but for sale.
I believe the government should perform its own work instead of paying churches,
or other organizations, government work for pay under the deception of charity.15
I believe people go to hell for volunteering, pro bono, organized charity and
fundraising by ignorantly teaching giving to get, even recognition, or tax breaks, is
charity, should they not repent. Jesus teaches to give unrecognized without giving

Organizations and associations are dangerous, teaching people to reflect the image of Satan, the
image of the beast, without hearts who run on cold hard cash as organizations do. The right of the
individual to associate must be preserved, not the right of associations, and entities such as churches
to consume, and eliminate, the rights of the individual, making them no longer free.
15

15

out of one hand to get out of the other when giving alms.16 So, it is far worse when
churches perform business under the deception of charity.
Since, I filed in forma pauperis, I am likely eligible or possibly was eligible in
the past to receive government aid by churches who perform government welfare in
exchange for government funding in part or in toto, including but not limited to my
own Catholic Diocese. Yet, I refuse to ask for aid as it violates my belief in Jesus,
since I believe such aid damns people to hell by teaching business is charity, driving
out love from the hearts of man replaced with the love of money and material gain,
the mark of the beast, business greed. Matthew 6:1-5. Jesus teaches they will not
go to heaven or have eternal life. “(T)hey have their reward.” Matthew 6:1.
My Diocese of Wilmington, accepts government funding in part, and in toto
for alleged charity but in truth the business of government, thereby I believe
violating Jesus’s teachings in Mathew 6:1-5.
In Trinity Lutheran Church of Columbia, Inc. v. Comer, “Chief Justice
Roberts, held that Missouri's anti-establishment provision “punished the free
exercise of religion” by putting would-be aid recipients to the choice whether to give
up the aid or give up their religious natures.’17
I too am similarly punished for free exercise of religion as a result of the
Executive Orders’ impact, as applied to me, by making me choose between serving
Jesus, or compromising my belief in Jesus to receive government aid by churches.

16

Ex. A To App F, App F, App E.

Trinity Lutheran Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012, 198 L. Ed. 2d 551 (2017);
Brendan T. Beery, Free Exercise Standing: Extra-Centrality As Injury in Fact, 93 St. John's L. Rev.
17

579, 598 (2019).

16

I chose not to ask for aid. I do not choose to disobey Jesus and mislead other
people God loves to the thinking, the belief in a lie that will damn them to hell.
My religious beliefs prevent me from applying with my church for
governmental funded services. “A community member should not be forced to forgo
a government service to preserve his or her ability to challenge an allegedly
unconstitutional religious display or activity.”18
In order to receive government aid, I am forced to violate my religious beliefs,
by applying for or accepting benefits from a religious organization. Thus, I go
without potential aid, but for the establishment of government-religion, a union, a
partnership based on pay, not freedom, which is not freely established but is
established in a bought or bartered for union, making us all less free.19
“The Establishment Clause prohibits government from establishing a religion
in the sense of sponsorship, financial support, or active involvement of the sovereign
in religious activity.”20

Citing, Freedom from Religion Found. Inc v. New Kensington Arnold Sch. Dist ., 832 F.3d 469, 479
(3d Cir. 2016).
19 See, Sherbert v. Verner, 374 U.S. 398, 399, 83 S. Ct. 1790, 1791, also see, Thomas v. Rev. Bd. of
Indiana Emp. Sec. Div., 450 U.S. 707, 716, 101 S. Ct. 1425, 1431, 67 L. Ed. 2d 624 (1981), (“ More
than 30 years ago, the Court held that a person may not be compelled to choose between the exercise
of a First Amendment right and participation in an otherwise available public program. A state may
not ‘exclude individual Catholics, Lutherans, Mohammedans, Baptists, Jews, Methodists, Nonbelievers, Presbyterians, or the members of any other faith, because of their faith, or lack of it, from
receiving the benefits of public welfare legislation.”’ Citing, Everson v. Board of Education, 330 U.S.
1, 16, 67 S.Ct. 504, 511, 91 L.Ed. 711 (1947).
20
Kalman v. Cortes, 723 F. Supp. 2d 766, 769, (2010).
18

17

The Government paid thousands of PPP loans to Catholic churches, making
my God look like a God of greed not love, thereby misleading people to hell, but for
the Executive Orders, and reasonably foreseeably causing me emotional distress.21
The Third Circuit held, “Neither a state nor the federal government can,
openly or secretly, participate in the affairs of any religious organizations or groups
and vice versa.”22 Here the executive orders allow both the state and the federal
government to openly and in secret participate in the affairs of religious
organizations, and vice versa, violating the Establishment Clause, through
“partnerships” by pay.
The conduct I refer to herein, and the continued enforcement of E.O 13798
and the other Executive Orders by Biden, constitute excessive entanglement by
establishing government-religious associations and beliefs, by the partnered paid,
not for freedom, but for sale, union of church and state.
“The Establishment Clause prohibits government from establishing a religion
in the sense of sponsorship, financial support, or active involvement of the sovereign
in religious activity.”23
The Executive Orders must be ruled unconstitutional, on their face.
Religion is not a business by religious entities. If religion is a business, the entity
sells goods and services based on a license, permission to provide goods or services,

Exhibits 38-39 of App. F. See, Doe v. Indian River Sch. Dist., 653 F.3d 256, 259, 2011
Doe v. Indian River Sch. Dist., 653 F.3d 256, 259.
23
Kalman v. Cortes, 723 F. Supp. 2d 766, 769, (2010).
21
22

18

not based on freedom, with the ability to force religious views upon customers who
may not be able to buy if they do not adopt the business religion with regards to this
Court’s decision in Masterpiece Cakeshop, Ltd. v. Colorado C.R. Comm'n, 138 S. Ct.
1719, 201 L. Ed. 2d 35 (2018), or sell with this court’s decision Burwell v. Hobby

Lobby Stores, Inc., 573 U.S. 682, 134 S. Ct. 2751, 189 L. Ed. 2d 675 (2014),
abrogating Autocam Corp. v. Sebelius, 730 F.3d 618, because it requires employees
to adopt their business’s religious exercise or go without employment, rending
businesses government reinforced god-heads.
The Courts recent decisions give the illusion of freedom, but it is based on
business which is not freedom but offering rights for sale.
In Revelation 13:17, scripture indicates “no one can buy and sell unless they
have the mark of the beast,” which I believe is business greed by barter or
exchange.
These two decisions immunize what I believe is the mark of the beast,
business greed, by entities and organization that have no power to do good by love,
as protected from court interference, making people no longer free, but for sale
slaves under entity and organization control who may force their will upon others
under the threat of going without, under the lawless reign of their lusts.
Enjoining enforcement of the Executive Orders as unconstitutional, on their
face, would prevent the Court from making similar decisions that eliminate free
exercise of religion while teaching people the mark of the beast, business greed,

19

without restraint, in the form of laws or love, as lawful and encouraged, leading to
harm and hell, should people not repent.24
III.

CAPABLE OF REPETITION, YET EVADING REVIEW,

SUBSTITUTION OF PARTY
The Delaware Supreme Court erred in concluding the exception, capable of
repetition yet evading review did not apply to prevent this case from being moot
since former Trump may be reelected, and since President Biden may be
substituted for former President Trump to dissolve government-religion to reduce

The Supreme Court is misguided by money saved or gained by entities who under the guise of
freedom of religion, control people, forcing their religious views, by business greed again in Little
Sisters of the Poor Saints Peter & Paul Home v. Pennsylvania, 140 S. Ct. 2367, 207 L. Ed. 2d 819
(2020). Here, “The Supreme Court… held that ACA authorized Health Resources and Services
Administration (HRSA) to exempt or accommodate employers’ religious or moral objections to
providing no-cost contraceptive coverage.” This arguably saves the employer more money in
insurance costs, at the exchange of losing coverage for their employees, bartering away, selling other
people’s free choice, their souls, or freedoms, for the bottom line by forced choice, which is based on
the mark of the beast, business greed, enslaving others to bend to your religious will, diminishing
their free will, by economic force, potentially losing a job. The Supreme Court is bartering away
people’s freedoms to artificial entities without hearts without the ability to reflect the image of God,
by love. Beasts run on cash. Jesus teaches you cannot serve God and Money. I choose God.
Money is not speech either. It is bought not free, not freedom of speech. If buying and bartering for
a voice is free speech, only those with money power and connections, have the freedom to purchase a
louder voice to be heard, in violation of the Equal protections clause, by disparate treatment based
on poverty and wealth. Wealth does not make one more important, more worthy of being heard,
creating unequal treatment and mistreatment of the poor.
This Court erred in Citizens United v. Fed. Election Comm'n, 558 U.S. 310, 130 S. Ct. 876, 175 L.
Ed. 2d 753 (2010). This Court erred in the finding “Use of funds to support a political candidate is
speech.” Austin v. Michigan Chamber of Com., 494 U.S. 652, 110 S. Ct. 1391, 108 L. Ed. 2d 652
(1990), overruled by Citizens United v. Fed. Election Comm'n, 558 U.S. 310, 130 S. Ct. 876, 175 L.
Ed. 2d 753 (2010)
This Supreme Court also erred in Our Lady of Guadalupe Sch. v. Morrissey-Berru, 140 S. Ct. 2049,
207 L. Ed. 2d 870 (2020), rendering religious organizations to lawlessly do as they please, fire
employees unjustly without remedy. It appears that if a religion allows an entity to discriminate, to
do what is most advantageous for the bottom line regardless of the harm, so long as they use the
name of God or religion, including non-religion, artificial entities without hearts will chose their own
religion, including non-religion forcing people no longer free to bend their will to serve business
greed, the mark of the beast, without discipline to sacrifice material gain to love humanity, in the
form of the rule of law, or love written on humanity’s hearts per Jeremiah 31.
24

20

the substantial burden upon my free exercise of religion pursuant to RFRA, should
standing be found.
Trump is no longer President, yet, “(1) the challenged conduct action is in its
duration too short to be fully litigated prior to its cessation or expiration, and (2)
there is a reasonable expectation that the same complaining party will be subjected
to the same action again.”25
Trump, should he be re-elected, will likely persist in the same course of
la0wless behavior establishing government-religious beliefs to glorify himself and
dehumanize his dissidents, demonizing me, by identifying my political position as
anti-Christ, misleading people to persecute me by unholy government-backed
incitement, causing additional physical harm related to emotional distress and
suppression of my free exercise of religion, speech and association.
I reasonably, foreseeably fear greater physical and Constitutional injury to
me should Trump be reelected, without the Court’s ability to restrain him. I pray
this honorable court prevents res judicata from applying for my potential claims
against Trump, since he will likely run in 2024, and become reelected. People have
already been killed based on their political-religious beliefs in recent years, directly
caused by and but for government incitement through former President Trump’s
Government-religion, or espoused or projected religious ordained beliefs.

25

United States v. Sanchez-Gomez, 138 S. Ct. 1532, 200 L. Ed. 2d 792 (2018).

21

IV.

LEAVE TO CONTINUE SHOULD BE GRANTED

Pending a favorable determination on standing, I should be permitted to
continue this suit, by seeking to substitute President Biden for former President
Trump in this action to prevent the continued establishment of government-religion
by President Biden’s continued enforcement of Executive Order 13798 and passage
of Executive Orders 14015, and enforcement of related Executive Orders 13831,
13559, 13198, 13199, 13279, 13342 and 13397.26
V.

STANDING

The Delaware Supreme Court erred in concluding I did not have standing to
seek to enjoin former Trump from establishing government-religion by overlooking
the President’s misconduct establishing government-religion, including enforcement
of the executive orders, and the causal link, the direct harm to me substantially
burdening my free exercise of religion, speech and association, in violation of the
First Amendment of the US Constitution, the Due process component of the fifth
amendment, and RFRA, causing emotional distress resulting in physical symptoms,
attacks by strangers adopting government-religious beliefs, foregoing on
government benefits provided through religious organizations, and misconduct by
court agents and arms in this case impeding my ability to freely bring this case,
based on my perceived religious affiliation as anti-Trump-religion or party-religion
and the relief that would afford me a remedy, personally, as a party of one, the

See Chancery Court Rule 25 (d) and ClubCorp, Inc. v. Pinehurst, LLC, No. CIV.A. 5120-VCP, 2011
WL 5554944, at *5 (Del. Ch. Nov. 15, 2011), with regards to substitution of elected officials.
26

22

enjoining of the President and future Presidents from continued establishment of
government-religion by inter alias enforcing the Executive orders, including E.O.
13798. U.S. Cons. Amend. 1, U.S. Const. Amend. V.27
A.

TRUMP CONDUCT EXESSIVE ENTANGLEMENT ESTABLISHMENT

GOVERNMENT-RELIGION BEYOND THE EXECUTIVE ORDERS
Trump further exacerbated the establishment of government-religion by
glorifying himself or his party, as Godly, while demonizing dissidents as attacking
God and encouraging violent, verbal or economic attacks against dissidents, based
on religious-political association in violation of RFRA.28
Trump also excessively entangled his government duties with religion
through collective behavior, taken as a whole establish government-religion, beyond
the executive orders, including but not limited to:
1.

appointing a personal spiritual advisor, and alleged Christian leaders
to advise the President, creating the religious backing and the
appearance of Godly guidance supporting Defendant’s government
authority;29

2.

holding up a Bible in front of a church for a photo op after people were
gassed in response to their Constitutional exercise of affiliation and
speech at a protest;30

App. F pgs. 13-66, App. E pgs. 4-21, Ex. 1-54 to App. F.
App. E and F, and Ex. A to App. F, and Ex 1-44 to App. F.
29
Exhibit A To App F at 293-298, Exhibits 28, 29, 41 to App F.
30 See Exhibit A 299-319 to App. F, Exhibit 30 to App. F, Matthew 5:38-39, Matthew 26:52, Genesis
9:5-6, Psalm 11:5.
27

28

23

3.

hypocritically claiming “Biden will hurt the Bible;”31

4.

persecuting people who exercised their freedom to worship or not by
the dictates of their own conscience, not government-religious
commands, by demeaning those who omitted the word God in the
pledge of the allegiance; 32

5.

improperly sharing his alleged prayer to God, while acting under the
color of the law;33

6.

creating the illusion there is a war on Christmas, by liberals like me;34

7.

repeating the government-religious belief that he may be the chosen
one by God, contributing to the government-religious belief Trump is
anointed by God;35

8.

moving the US embassy in Israel to Jerusalem for a religious group,
Evangelicals; 36

9.

sponsoring and inciting private persecution towards liberals by
churches and its parishioners, by buying loyalty by barter or exchange,
even by praise, for a little something down the line, such as bailouts, or
power to persuade politicians, at the cost of teaching some preachers
and parishioners to persecute non-Trump supporting liberals like me,
and including me;37

Exhibit A 320-321 to App F, Exhibit 42 to App. F.
Exhibit A 322-328 of App. F, Exhibit 31 of App F.
33 See Exhibit A, 329-335 to App. F, Exhibit 32 to App. F.
34 Exhibit A 336-347 of App F, Exhibit 33 of App F.
35 Exhibit A 348-353, Exhibit E, Exhibits 34, 35, 36.
36 Exhibit A 354-355, Exhibit E, Exhibit 37.
37
See Exhibit A 356-371 of App F, Exhibits 9,38-39 of App F.
31
32

24

10.

tweeting fabrications making it appear democrats like me are
attacking the church including the tweet. “DEMS WANT TO SHUT
YOUR CHURCHES DOWN, PERMANTLY. HOPE YOU SEE WHAT
IS HAPPENING. VOTE NOW;”38

11.

signing another Executive Order, Ex. Or No. 13831, May 3, 2018,
which increases the temptation for government employees, including
the President, to back religions financially or otherwise, in hopes to
receive their government backing and government support in return
under E.O. 13798; and

12.

using his son to glorify him as the savior of Christianity, when I
believe Jesus the Christ is the savior under Christianity. Eric Trump
said his “father ‘literally saved Christianity…there is a full war on
faith on the other side, (meaning my democrat side). (Eric continued),
‘The Democrat Party, the far left, has become the party of atheists, and
they want to attack Christianity”’39

B.

SUBSTANTIALLY BURDENING FREE EXERCISE OF RELIGION,

SPEECH, AND ASSOCIATION
President Trump established government-religion through his speech and
conduct by inter alias, persecuting perceived religious-political affiliations or
projected non-religious-political affiliates, while adopting or teaching religious-

38
39

Exhibit 44 to App. F.
Exhibit 49 to App. F.

25

beliefs or adopting religious partnerships’ beliefs, while acting under the color of the
law, in his official capacity as President. 40
I am a Christian. I believe in God revealed to me through the father, Jesus
and the holy spirit, including the holy spirit shown through people in the Bible who
freely, willfully chose to do God’s will above their own.
Since I do not support Trump, and claim to be a democrat, people have
accused me of not being a Christian, reasonably causing me to experience emotional
distress and substantially burdening my free exercise of religion, speech and
association by leaving it restrained and at times unexercised, but for Trump’s
incitement towards perceived, projected manufactured dissidents, including liberals
like me, as antichrist.41
C.

EMOTIONAL DISTRESS RELATED TO PEOPLE GOING TO HELL,

BUT FOR GOVERNMENT-RELIGION
Besides inciting others to substantially burden my free exercise of religion,
speech, and association, and forgoing of government benefits distributed through
religious private entities, Government-religion caused foreseeable infliction of
emotional distress manifesting in tears, anxiety, clenching of teeth, and at times
increased blood pressure. 42

Ex. A of App. F at 34, 293-298, 352-433, Ex. 10, 11, 27-39, 41-42, 44, 47, 49 to App. F, and App. F.
For examples of Trump inciting attacks against democrats like me, including me, and other
projected dissidents to Trump based on religion please see, Ex 10, 11, 24, 25,30,31, 33, 53 to App. F
42
Ex. 52 to App. F
40
41

26

While repeating claims he is God’s chosen one or is saving Christianity and
the bible, as if he is a God-head in government or the savior, I believe Trump
reflected the image of the devil by serving greed, and his own desires, not good by
love and by modeling other antichrist behavior, thereby misleading people I love
who adopt his government-religion, to be twice dead, should they not repent,
foreseeably causing infliction of emotional distress manifesting in physical
symptoms.
I oppose mental healthcare and medical examinations on religious grounds.
So, whether you find the physical harm to me concrete, directly established but for
government-religion, will be based, on whether you believe me, not on outside
expert opinions or treatises which I object to on religious grounds.
I care about others outside of my own. That does not make me crazy. It
makes me a Christian. I do not want people to be misled to harm and hell under
the Government-Religion’s guise of godliness.
Trump exhibited Anti-Christ beliefs, by allowing the gassing of protesters in
order to gain a photo shoot with the Bible. Jesus the Christ calls for love of our
enemies, and turning the other cheek not use of violence to persuade dissidents to
conform to your will by force. 43 Similarly, Trump exhibited Anti-Christ beliefs by
inciting violence and called for militarization of police and for the use of violence

Citing, Exhibits 10, 11, 24, 25, 30, 31, 44, 49, 53 to Appendix F, See, Luke 6:26-35, Matthew 5:3948, Romans 12:20, Proverbs 25:21, Exodus 23:4-5, 2 Kings 6:22, 2 Chronicles 28:15, Genesis 9:5-6.
43

27

against perceived dissidents to Trump or Government-religion which is Anti-Christ,
while claiming support of Christ and support of Christians. 44
Trump reflects the image of the devil, the Anti-Christ by lies, by teaching the
lie democrats made people less free to say Merry Christmas, accepting the
propaganda praise of his son, Eric who indicated Trump saved Christianity, and by
indicating Democrats are the enemies of the Church by tweeting Democrats want to
eliminate churches.45
Trump reflects the image of the devil, not Christ, by teaching the sin of pride
and putting himself first, his family first, and the illusion of America First, when
Jesus the Christ teaches us the new command to love one another, love others as
yourself, not love yourself more at the cost of ignoring the needs of others, even
harming others to serve self.46 Loving your kids or parents more is damnation
guaranteed, per Jesus. Matthew 10:34-37.

Id.
Exhibit A to Appendix F, Exhibit 49 to Appendix F. See, John 8:44.
46 Citing, Exhibits 12-14 of Appendix F, See, Isaiah 14, John 13:34-35, “A new command I give you:
Love one another. As I have loved you, so you must love one another. By this everyone will know that
you are my disciples, if you love one another.” Mark 12:30-31, “Love the LORD your God with all
your heart and with all your soul and with all your mind and with all your strength.' The second is
this: 'Love your neighbor as yourself.' There is no commandment greater than these." Jesus teaches
people go to hell for putting parents or kids or self first, for loving self or your family more than
others, and more than God. See, Matthew 10:34-37. Jesus teaches those who love mother and
father more than Jesus, or son or daughter more than Jesus are not worthy of eternal life. In
Matthew 25:1-13, the parable of the 10 virgins, all 10 had lamp oil. Five ran out and asked to borrow
lamp oil from those who had some left. They said no, go buy their own. They left to buy their own,
and were locked out of the marriage feast, meaning they went to hell. It is good to love others as
yourself, but we love God more, and must live for God foremost not sacrificing our lives for mere
men, in place of God to be damned to hell.
44
45

28

Trump reflects antichrist beliefs by demeaning women as sexual objects
instead of people when Jesus teaches men will be thrown into hell should they even
look at women with lust should they not repent. 47
Trump reflects Ant-Christ behavior by business strategies that will destroy
the earth when God will “destroy those who destroy the earth,” meaning in hell on
judgment day at the resurrection of the dead. 48
Trump reflects the “lawless one” the image of Satan by disregarding the rule
of laws to love humanity, with the lawless reign of likes, desires, wants without
regard to others unless it affects him.49
Trump profanes my God’s holy name for his vanity, foreseeably upsetting me
by hurting my God and other people I love through religious mis-leadership.
REASONS FOR GRANTING THE PETITION
The Court must reverse course to prohibit the establishment of religion to
protect us from government forced worship by economic, social or physical

Citing, Exhibits 17-19, 23,40, to Appendix F. See, Matthew 5:27-29, “You have heard that it was
said, 'You shall not commit adultery.' But I tell you that anyone who looks at a woman lustfully has
already committed adultery with her in his heart. If your right eye causes you to stumble, gouge it
out and throw it away. It is better for you to lose one part of your body than for your whole body to be
thrown into hell.”
48 See, Exhibit A of Appendix F at 236-292, Exhibit 8 and Exhibit 45 of Appendix F, relating to the
environment. Pursuant to Genesis 2:15, man is charged with the duty to care for the Earth.
Revelation 11:18 teaches God will destroy those “who destroy the earth.” I believe, meaning destroy
in hell. It is wrong to teach folks the way to hell via unconcern towards the environment and
towards one another for comfort, convenience or coins, under the guise of heaven.
49
Exhibits of App F.
47

29

government supported pressure making us no longer free to worship by the dictates
of our conscience with threat of government incited force.
The elimination of freedom to choose to worship or not according to the
dictates of our conscience is the first step to eliminating true worship of God. Next,
may be to tax the church to teach the gospel of the mark of the beast, business
greed, as worship, should this court ignore the Constitution in preference to selling
our religious liberties through mere Executive Orders to government-partneredreligious entities. Freedom is not for sale. If it is, none are free, but are slaves to
those who tempt us, through government backing, to compromise our religion for
business greed, essentially selling our souls for the bottom line or going without.
CONCLUSION The petition for a writ of certiorari should be granted.
Respectfully submitted.
Dated: August 23, 2021

Respectfully submitted,
/s/ Meghan Kelly
Meghan Kelly, Pro se
Not acting as an Attorney
34012 Shawnee Drive
Dagsboro, DE 19939
(Word Count 8999)

30

